DOE F 1325.8
(08-93)
United States Government
                                                                                   Department of Energy

Mem orandum                                                                           OFFICEOFINSTR GENERAL
      DATE;      February 28, 2006
   REPLY TO
    ATTN OF:     IG-32 (A05PR017)                                 Audit Report No.: OAS-L-06-08
   SUBJECT:      Audit of "Personal Property Management at Oak Ridge National Laboratory
                                                                                         and
                 Brookhaven National Laboratory"
     TO:         Manager, Oak Ridge Office
                 Manager, Brookhaven Site Office

                 INTRODUCTION AND OBJECTIVE

                The Department of Energy (Department) Office of Science's 10 national laboratories
                are responsible for managing personal property with an acquisition cost of
                                                                                              about
                $3.4 billion. Generally, personal property consists of all property, but exclusive
                                                                                                     of
                real estate and permanent fixtures. Personal property includes laboratory,
                                                                                             office and
                shop equipment, vehicles, furniture, computers, and sensitive items
                                                                                      that are
                susceptible to being appropriated for personal use.

                Personal property at the Oak Ridge National Laboratory (Oak Ridge)
                                                                                        and the
                Brookhaven National Laboratory (Brookhaven) comprised about 26
                                                                                       percent of the
                total number of property items and total dollar value (acquisition cost)
                                                                                         of personal
                property at the Office of Science's 10 national laboratories. As of September
                30, 2004, Oak Ridge reported about 19,000 personal property items
                                                                                      valued at
                $525 million and Brookhaven reported about 17,000 personal property
                                                                                         items valued at
                $363 million.

               The objective of our audit was to determine whether Oak Ridge and
                                                                                    Brookhaven have
               adequate systems and controls in place to ensure that personal property
                                                                                       is properly
               accounted for, controlled, and disposed.

               CONCLUSION AND OBSERVATIONS

               With minor exceptions, nothing came to our attention during the course
                                                                                        of the audit to
               indicate that Oak Ridge's and Brookhaven's systems and controls
                                                                                  over personal
               property were not properly accounted for, controlled, or disposed.

               At both Oak Ridge and Brookhaven, we found minor instances of
                                                                                   inaccurate or
               outdated property records, such as incorrect locations, serial numbers,
                                                                                       or model
               numbers. For example, property records incorrectly identified the
                                                                                   building in which
               the item was located for about 4 percent of the items tested and
                                                                                had an incorrect or
               missing serial number for about 3 percent of the items tested. We
                                                                                  discussed these
V   / VIA
      U./   UU
            VU.           I . tO
                  TT•iLJ 11,%       rAj   %   k*J.                                                    aV




                        discrepancies with Oak Ridge and Brookhaven management, who agreed to take
                        corrective actions.

                       .SCOPE AND METHODOLOGY

                       The audit was performed from April 2005 to January 2006 at Oak Ridge National
                       Laboratory in Oak Ridge, Tennessee, and Brookhaven National Laboratory in Upton,
                       New York. The audit scope covered all personal property items acquired by the two
                       laboratories prior to the time of our site visits.

                       To accomplish the audit objective, we:

                             *     Reviewed applicable Federal regulations, Department of Energy regulations
                                   and directives, and Oak Ridge and Brookhaven contract terms, policies, and
                                   procedures;

                            *      Reviewed prior audits and reviews related to property management;

                            *      Obtained personal property databases and compared capital equipment to
                                   financial records;

                            o       'ested 355 and 475 randomly selected personal property items at Oak Ridge.
                                   and Brookhaven, respectively;

                            o      Traced a sample of procurement transactions, including purchase card
                                   transactions, to property records;

                           *       Reviewed incident reports involving loss, theft, damage, or destruction of
                                   personal property;

                           o       Reviewed criteria and thresholds for identifying sensitive items; and,

                           o       Reviewed personal property disposal processes.

                    The audit was performed in accordance with generally accepted Government auditing
                     standards for performance audits and included tests of internal controls and
                    compliance with laws and regulations to the extent necessary to satisfy the audit
                    objective. Because our review was limited, it would not necessarily have disclosed all
                    internal control deficiencies that may have existed at the time of our audit. We
                    considered performance measures established in accordance with the Government
                    Performanceand Results Act of 1993 as they related to the audit objective. We relied
                    on computer-processed data to accomplish the audit objective. When appropriate, we
                    performed limited test work of data reliability during our audit and determined that we
                    could rely on the computer-processed data.

                    An exit conference was held with representatives of Broolhaven and the 13rookhaven
                    Site Office. The Oak Ridge Office waived an exit conference.




                                                              2
U>/U1/UO   VI0    I/;   14 o   A   4   44x4    o«J
                                              4901                                 *




                  Since no recommendations are being made in this report, a formal response is not
                 Srequired. We appreciate the cooperation of your staff and the Oak Ridge and
                 Brookhaven staffs during our review.




                                                           redrick G. Pieper, Division Director
                                                          Energy, Science and Environmental
                                                            Audits Division
                                                          Office of Inspector General

                 Attachment

                 cc: Chief of Staff
                     Team Leader, Audit Liaison, CF-1.2
                     Audit Liaison, SC-32.1
                     Audit Liaison, Oak Ridge Office
                     Audit Liaison, Brookhaven Site Office




                                                     3
